C)':
No.

uj j:

U;

a S'"'\ '

Uif
Supreme Court,
FILED

IN THE SUPREME COURT OF THE UNITED STATES

,

u.s.

AUG 0 5 2020
OFFICE OF THE CLERK

OCTOBER TERM 2020

JIN HUANG ZHENG,
PETITIONER,

vs .

UNITED STATES OF AMERICA,
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

JIN HUANG ZHENG
PETITIONER
USM # 12564-028;
Metropolitan Correctional Center
71 W. Van Buren St.
Chicago, IL 60605

RECEIVED
AUG 1 4 2020
SUPrImeTCOtmr-nRcK

5>

QUESTION PRESENTED

Jurisdiction of an appeal of an interlocutory order has
previously been granted the Government (in a separate case) by
the Seventh Circuit.

Petitioner Zheng's Motion for the same

relief was dismissed because;of lack of jurisdiction,

The case

requires hearing before the Supreme Court in order to maintain
uniformity in application of the Seventh Circuit's precedent.

-2-

IN THE SUPREME COURT
OF THE UNITED STATES
OCTOBER TERM 2020
No.
JIN HUANG ZHENG,
PETITIONER,
vs .
UNITED STATES OF AMERICA,
RESPONDENT.
The Petitioner, Jin Huang Zheng, respectfully prays that
a Writ of Certiorari issue to review the judgment of the United
States Court of Appeals for the Seventh Circuit entered on
May 6, 2020 in Case No. 20-1396

District Case No. 1:14-cr-00424.

OPINION BELOW
On May 6, 2020, the Seventh Circuit entered an opinion that
it did not have jurisdiction to hear Petitioner's appeal from the
District Court's denial of his motion for new trial prior to
sentencing.

A copy of the Opinion is attached as Appendix A.

JURISDICTION
;_

Jurisdiction of this Court is invoked under Title 28,

United States Code § 1254(1).

-1-

HISTORY OF THE CASE
On November 20, 2014, a grand jury returned a two-count indictment
charging Jin Huang Zheng and five co-Defendants with conspiracy to
commit extortion and use of extortionate means to collect an exten­
sion of credit, both in violation of Title 18 U.S.C. §894(a)(l).
The Court accepted the government's Santiago proffer after noting
that Defendant did not file objections (which became part of Zheng's
ineffective assistance claim).

Also, Petitioner's attorney had him

sign a statement, without benefit of an interpreter, agreeing to
statements he supposedly made at the Hibachi Grill to Ronald Rong
Lin, the victim-witness on June 1, 2014.
On May 8, 2018, a jury returned a verdict of guilty as to
Petitioner on both counts of the indictment.

On July 9, 2018,

Petitioner (through counsel) filed a motion for a new trial and a
judgment of acquittal.

After full briefing, but before the Court

could;' issue a ruling on the pending motion, Petitioner filed a pro
se supplement to the initial motion for new trial, filed by his
attorney,

As a result of Petitioner's pro se filing -- which

(among other things) accused defense counsel of providing ineffective
assistance -- counsel was granted leave to withdraw,

Petitioner

elected to proceed pro se during the supplemental filing and the
Court ordered full briefing.
On February 21, 2020, the District Court denied Petitioner's
motion for judgment of acquittal under Federal Rule of Criminal
Procedure 29 and denied a motion:for new trial pursuant to Rule 33.
The District Court also denied Petitioner an evidentiary hearing.

-3-

REASONS FOR GRANTING THE WRIT
CONFLICTING GRANT 0F7JURISDICTI0N TO THE GOVERNMENT
IN AN APPEAL OF AN INTERLOCUTORY ORDER IN VIOLATION OF
DUE PROCESS AND EQUAL'- PROTECTION CLAUSE

This case presents (1) a controlling question of law,
(2) over which there is a substantial ground for difference of
opinion, and (3) an immediate appeal would materially advance the
ultimate termination of litigation, as it has for another Seventh
Circuit case in a liberal application of to a Government petition
where otherwise Defendants would not have been accorded like
flexibility.
In Joseph

Burton, Petitioner v. A.M. Owens, Warden-Respondent

before the Seventh Circuit Court of Appeals, Appeal No. 17-3437,
it was the government's turn to appeal an interlocutory order.
It was from an order which granted Burton's resentencing pursuant
to 28 U.S.C. §2241.

The government argued before Judge Thomas. M.

Durkin that Burton's resentencing hearing should be stayed until
the Court of Appeals could decide two other appeals, including
the government's appeal of Judge Joe Billy McDade's (C.D.I1.) order
that granted Burton a resentencing.

The case was transferred to

the Northern District of Illinois and a formal stay was ordered
to await the Court of Appeal's decision.
The government's jurisdictional appeal in Burton was based on
its argument that Judge McDade's order granting Burton's resentence ended the §2241 case.

The argument was disengenuous at best.

Yet, the government was allowed to appeal what was an interlocutory
-4-

order, and what was good for the government should apply equally
to a defendant's similar appeal of an interlocutory order to be
heard prior to a sentencing hearing.
The Court has subject matter jurisdiction.

The right to appeal

an adverse decision is vested solely in the defendant and the
authority to hear that appeal i svested solely in the court of appeal
for the circuit.

Neither should the defendant's right to review

of a lower court's decision depend upon how quickly the U.S. Attorney
is able to push a case for sentencing.

(See Brief of A.M. Owens,

Warden, Respondent-Appellant in Burton v. Owens, 17-3437, 7th Cir.,
p.13; also see U.S. v. Jackson,

544 F.3d 1176 (11th Cir. 2008).

Importantly, "an appellate court's function is to revisit matters
decided in the [lower] court, not to apply the law as determined by
the lower court.

Musacchio v. United States, 136 S.Ct. 709, 716 (2016).

Petitioner Zheng requested the district court grant him an
evidentiary hearing in connection with his pro se Motion for New
Trial pursuant to Federal Rule of Criminal Procedure 33(a), and
U.S. v. Simpson, 864 F.3d 830 (7th Cir. 2017), on the grounds that
his trial counsel rendered ineffective assistance.

The court

generally-reviews ineffective assistance claims on collateral review;
however, when a defendant raises an ineffective assistance claim in
a motion for a new trial, that "claim is addressed by holding an
evidentiary hearing for the trial court to consider the evidence of
the trial counsel's deficiency and its possible effects on the
outcome."

United States v. Malone, 484 F.3d 916, 919 (7th Cir. 2007).

-5-

As the Seventh Circuit stated in the habeas corpus context,
"[ineffective claims often require an evidentiary hearing because
they frequently allege facts that the record does not fully disclose."
Osagiede v. United States, 543 F.3d 399, 408 (7th Cir. 2008).
set forth in his request to appeal an interlocutory order,

As

(1)

Petitioner Zheng asserts that the government violated its constitu­
tional duty to inform the defense of material exculpatory evidence
pursuant to Brady v. Maryland, 373 U.S. 83 (1963).

The government's

suppression or withholding of exculpatory evidence can serve as a
basis for a New Trial, dismissal, reversal, or appeal, or other
appropriate relief.
(2)

Also see Giglio v. U.S., 405 U.S. 150 (1972).

The government knowingly used perjured testimony to convict

the Petitioner and it has refused to correct said testimony of
Ronald Rong Lin and Peter.Dong. See Napue v. Illinois, 360 U.S. 264(1959).
(3)

Petitioner's attorney rendered ineffective assistance and

inadequate representation by not challenging the government informant's
proffer and by refusing to impeach Ronald Rong Lin based on his
fraudulent bankruptcy.
(4)

Defendant did not legally commit extortion nor conspire

to commit extortion withing the meaning of the applicable statutes.
See Scheidler v. NOW, Inc., 537 U.S. 383 (2002); 18 U.S.C. §1951;
18 U.S.C. §894(a)(1).

-6-

CONCLUSION
The Petition for a Writ of Certiorari should be granted.

Respectfully submitted,

V
<Jin Huang^ Zheng
Petitioner
USM No. 12564-028
Metropolitan Correctional Center
71 W. Van Buren St.
Chicago, IL 60605

-7-

